No. ____________

IN THE

DEAN PHILLIP CARTER,
Petitioner,
v.
RON BROOMFIELD,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Michael D. Weinstein, a Deputy Federal Public Defender in the Office of
the Federal Public Defender who was appointed as counsel for Petitioner under the
Criminal Justice Act, 18 U.S.C. § 3006A(a)(2)(B), and who is a member of the Bar of
this Court, hereby certifies that, pursuant to Supreme Court Rule 29.3, on
November 6, 2020, a copy of Petitioner’s MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS, PETITION FOR WRIT OF CERTIORARI, and
APPENDIX were mailed postage prepaid to:
//
//

Annie Featherman Fraser
Robin Helene Urbanski
Deputy Attorneys General
Office of the California Attorney General
600 W. Broadway, Suite 1800
San Diego, CA 92101
Annie.Fraser@doj.ca.gov
Robin.Urbanski@doj.ca.gov
Counsel for Respondent
I declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct.
Executed on November 6, 2020, at Los Angeles, California.

/s/ Michael D. Weinstein
MICHAEL D. WEINSTEIN
Deputy Federal Public Defender
Attorneys for Petitioner
DEAN PHILLIP CARTER
*Counsel of Record

